    DISCUSSION DRAFT
                                                                          OFFICE OF JOB CORPS

8.S. Department of Labor
                            Office of Inspector General—Office of Audit




                                                                          PERFORMANCE AUDIT OF ADAMS AND
                                                                          ASSOCIATES, INCORPORATED JOB CORPS
                                                                          CENTERS




    26-A08-001-01-370
                                                                                              Date Issued: September 30, 2009
                                                                                           Report Number: 26-09-003-01-370 
U.S. Department of Labor                                September 2009
Office of Inspector General
Office of Audit                                         WHAT OIG FOUND

                                                        Adams did not consistently ensure compliance with Job
BRIEFLY…                                                Corps requirements for safety in one of three areas
                                                        tested — student misconduct. At Atterbury, fact-finding
                                                        boards were not always convened as required for
Highlights of Report Number 26-09-003-01-370,
                                                        students suspected of serious misconduct, such as
Performance Audit of Adams and Associates,
                                                        threats of violence; and behavior review panels were
Incorporated Job Corps Centers to the National
                                                        not convened for students who committed multiple, less
Director, Office of Job Corps.
                                                        serious infractions, such as creating a disturbance. The
                                                        Atterbury and Gadsden Centers also did not always
WHY READ THE REPORT                                     report significant incidents, such as physical assault,
                                                        and narcotics possession to Job Corps as required.
This report discusses weaknesses in addressing          Consequently, these actions hindered Job Corps’ ability
student misconduct and in performance reporting at      to monitor center safety, to ensure significant student
three Job Corps Centers operated by Adams and           misconduct was handled appropriately,
Associates, Incorporated (Adams).
                                                        Additionally, Adams had control weaknesses in two of
WHY OIG CONDUCTED THE AUDIT                             four areas regarding performance reporting – CTT
                                                        completions and Student Attendance/Accountability.
Our audit objectives were to answer the following       For CTT completions, Adams did not ensure students
questions:                                              completed all required training tasks. For Student
                                                        Attendance/Accountability, Adams did not consistently
    1. 	 Did Adams ensure compliance with Job Corps     attempt or document attempts to contact students or
         requirements for managing center safety        their parents (for minor students) when the students
         programs?                                      were absent without leave (AWOL), and student leave
                                                        was not supported as required.
    2. 	 Did Adams ensure compliance with Job Corps
         requirements for reporting performance?        Nothing came to our attention to indicate that Adams
                                                        did not ensure compliance requirements for managing
    3. 	 Did Adams ensure compliance with Job Corps     and reporting financial activity.
         requirements for managing and reporting
         financial activity?                            The allegation at Shriver pertaining to student
                                                        misconduct had merit as we found problems concerning
In addition, in response to a hotline complaint, we     the convening of boards and panels, and the reporting
added an objective:                                     of significant incidents. The allegations pertaining to
                                                        CTT completions and WBL programs did not have
    4. 	 Did a hotline complaint alleging improper      merit. However, Shriver did not consistently comply with
         management practices pertaining to student     the requirements for CTT completions and for
         misconduct, Career Technical Training (CTT)    accountability regarding its WBL students.
         completions and Work-Based Learning (WBL)
         at the Shriver Job Corps Center have merit?    WHAT OIG RECOMMENDED

Our audit work was conducted at Adams headquarters      We made eight recommendations to the National
in Reno, Nevada and Columbia, Maryland; and at the      Director, Office of Job Corps. In summary, we
Atterbury Job Corps Center in Edinburgh, Indiana; the   recommended that Job Corps direct Adams seek Job
Gadsden Job Corps Center in Gadsden, Alabama; and       Corps approval before deviating from Job Corps
the Shriver Job Corps Center in Devens,                 requirements regarding the convening of Fact Finding
Massachusetts.                                          Boards/Behavior Review Panels and the reporting of
                                                        significant incidents, and implement corporate oversight
READ THE FULL REPORT                                    procedures, and training to ensure its centers comply
                                                        with Job Corps requirements in each of the areas we
To view the report, including the scope, methodology,   identified control weaknesses (CTT completions, AWOL
and full agency response, go to:                        students, student leave, and WBL).

                                                        The Acting National Director, Office of Job Corps fully
http://www.oig.dol.gov/public/reports/oa/2009/
                                                        concurred with four recommendations and concurred-
26-09-003-01-370.pdf
                                                        in-part with four recommendations.
PAGE INTENTIONALLY LEFT BLANK

                                    U.S. Department of Labor – Office of Inspector General




1) Atterbury Job Corps Center                2) Gadsden Job Corps Center
 Edinburgh, Indiana                          Gadsden, Alabama




                       3) Shriver Job Corps Center
                       Devens, Massachusetts




                                                                   3) Shriver Job Corps




                                                                           Adams and
                                                                           Associates
                                                                           Regional
                                                                           Headquarters

                                                           1) Atterbury Job Corps

Adams and
Associates
Headquarters
                                                          2) Gadsden Job Corps Center
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 

                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results in Brief .............................................................................................................. 2


Objective 1 –  Did Adams ensure compliance with Job Corps requirements for
managing center safety programs?............................................................................. 4
         Finding 1 – For two of three areas reviewed, nothing came to our
            attention indicating that Adams did not ensure compliance with center
            safety. However, Adams did not consistently ensure compliance with
            Job Corps requirements for managing student misconduct. ........................... 4

Objective 2 –   Did Adams ensure compliance with Job Corps requirements for
reporting performance?................................................................................................ 9
         Finding 2 – For two of four performance reporting areas reviewed,
            nothing came to our attention indicating that Adams did not ensure
            compliance. However, Adams did not ensure compliance with Job
            Corps requirements for CTT completions and student accountability. ............ 9

Objective 3 –  Did Adams ensure compliance with Job Corps requirements for
managing and reporting financial activity? .............................................................. 15

Objective 4 –    Did a hotline complaint alleging improper management practices
pertaining to student misconduct, CTT completions, and WBL at the Shriver Job
Corps Center have merit? .......................................................................................... 15
         Finding 3 – The allegation that students were being retained when they
            should have been separated for misconduct had merit. The allegations
            that students were rushed through CTT programs to improve reported
            performance, or were placed in WBL programs to extend enrollment,
            did not have merit. However, during our testing, we found CTT
            completions were not in compliance with Job Corps policy and
            students enrolled in WBL were not properly accounted for. .......................... 15

Recommendations ...................................................................................................... 18


Appendices.................................................................................................................. 21

         Appendix A Background ..................................................................................... 23

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25

         Appendix C Acronyms and Abbreviations .......................................................... 31

         Appendix D Job Corps Response to Draft Report .............................................. 33

         Appendix E Adams Response to Draft Report.................................................... 37

         Appendix F Acknowledgements ......................................................................... 41

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 

                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2009

                        Assistant Inspector General’s Report



Lynn A. Intrepidi
Acting National Director
Office of Job Corps
200 Constitution Avenue, NW
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of Adams and
Associates, Incorporated (Adams). Adams is under contract with Job Corps to operate
11 Job Corps centers for the Department of Labor. Job Corps requires its center
operators to establish procedures and conduct periodic center audits to ensure integrity,
accountability, and prevention of fraud and program abuse. We had initially planned to
pursue three audit objectives during our audit. However, in response to a hotline
complaint, we added a fourth objective to determine the validity of allegations that
Adams officials engaged in improper practices at the Shriver Job Corps Center.

The audit objectives were to answer the following questions:

   1. Did Adams ensure compliance with Job Corps requirements for managing center
      safety programs?

   2. Did Adams ensure compliance with Job Corps requirements for reporting 

      performance? 


   3. Did Adams ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   4. Did a hotline complaint alleging improper management practices pertaining to
      student misconduct, Career Technical Training (CTT) completions, and Work-
      Based Learning (WBL) at the Shriver Job Corps Center have merit?

This report covers our audit work conducted at Adams regional headquarters in
Columbia, Maryland; the Gadsden Job Corps Center (Gadsden) in Gadsden, Alabama;
the Atterbury Job Corps Center (Atterbury) in Edinburgh, Indiana; and the Shriver Job
Corps Center (Shriver) in Devens, Massachusetts. Additional background information is
contained in Appendix A.


                                                                       Performance Audit of Adams
                                              1
                                                                       Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

Adams did not consistently ensure compliance with Job Corps requirements for safety
in one of three areas — Student Misconduct. At Atterbury, fact-finding boards (FFBs)
were not always convened as required for students suspected of serious misconduct,
such as threats of violence; and behavior review panels (BRPs) were not convened for
students who committed multiple, less serious infractions, such as creating a
disturbance or missing classes. The Atterbury and Gadsden Centers also did not
always report significant incidents, such as inappropriate sexual behavior, physical
assault, and narcotics possession to Job Corps as required. Consequently, these
actions hindered Job Corps’ ability to monitor center safety, to ensure significant student
misconduct was handled appropriately, and to respond to negative press regarding
such incidents.

Additionally, Adams had control weaknesses in two of four areas relating to compliance
with Job Corps requirements for reporting performance — Career Technical Training
(CTT) completions and Student Attendance/Accountability. For CTT completions,
Adams did not ensure students completed all of the training tasks as required by Job
Corps. For Student Attendance/Accountability, Adams did not consistently attempt or
document attempts to contact students or their parents (for minor students) when the
students were absent without leave (AWOL), and student leave was not supported as
required.

The allegation that Shriver students were allowed to remain at the center, even though
they should have been separated for disciplinary reasons, had merit. Similar to
Atterbury, Adams and Shriver management did not always convene FFBs and BRPs
when necessary for students suspected of misconduct; and did not report significant
incidents to Job Corps when required. The hotline complaint allegations that students
were rushed through CTT programs to improve reported performance or were placed in
Work-Based Learning (WBL) programs to extend enrollment, when they were already
employed, did not have merit. However, Shriver did not consistently comply with the
requirements for CTT completions, and did not always comply with requirements for
student accountability regarding its WBL students.

These conditions occurred because Adams corporate management believed that the
Center Director had more discretion than Job Corps policy allowed regarding whether or
not to convene FFBs, and neither Job Corp nor Adams provided adequate guidance
concerning when to convene BRPs. Additionally, Adams did not provide sufficient



                                                                    Performance Audit of Adams
                                             2
                                                                    Report No. 26-09-003-01-370
                                          U.S. Department of Labor – Office of Inspector General


oversight to ensure students completed all of the training tasks as required by Job
Corps and that students were accounted for properly.

Finally, nothing came to our attention to indicate that Adams’ headquarters offices and
the Gadsden Center did not ensure compliance with Job Corps requirements for
managing and reporting financial activity. (We did not review financial activity at
Atterbury.)

RECOMMENDATIONS

Our report contains eight recommendations to the National Director, Office of Job
Corps. In summary, we recommend that Job Corps direct Adams to develop and
implement corporate and center procedures and oversight to ensure its centers comply
with Job Corps requirements in the following areas:

   Convening Fact-Finding Boards/Behavior Review Panels,
   Reporting Significant Incidents to Job Corps,
   Properly reporting CTT completions,
   Contacting AWOL Students or their Parents, and
   Reporting Student Leave.

JOB CORPS AND ADAMS’ RESPONSE

In response to our draft report, the Acting National Director, Office of Job Corps,
concurred either fully or in part with each of our eight recommendations. Where Job
Corps partially concurred, we considered the response to have met the intent of the
recommendations. Job Corps did not directly comment on the audit results but
previously stated that we interpreted Job Corps’ Policy and Requirements Handbook
(PRH) correctly and the findings may lead Job Corps to strengthening and clarifying
current policy that involves the issues identified in the Adams audit.

Adams commented that the lack of FFBs/BRPs and the lack of the reporting of
significant incidents did not create an unsafe environment. Adams stated that the CTT
completion issue was a documentation issue that Job Corps has since addressed and
that the student accountability issues were also primarily documentation issues. Adams
further stated that the consistent theme throughout the report — that Adams lacked
sufficient oversight and believed it had more discretion than the PRH allowed — are
opinions that are subjective and not factual.

Job Corps’ and Adams’ written responses to our draft report are provided in their
entirety as Appendices D and E, respectively.

OIG CONCLUSION

We considered the actions taken or planned by Job Corps to be responsive in meeting
the intent of the findings and recommendations.


                                                                   Performance Audit of Adams
                                            3
                                                                   Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General




Concerning Adams’ comments, all of the students included in our review of student
misconduct at Gadsden and Atterbury were eventually separated for disciplinary
reasons, such as physical assault, arrest for larceny off-center, and gang-related
activity. Had the appropriate FFBs/BRPs been convened, these students may have
been separated earlier. As such, problem students were allowed to stay on center,
potentially placing other students and staff at risk. We also disagree with Adams’
assertions that the exceptions we identified for CTT completions, AWOL contacts,
leave, and WBL were primarily documentation issues. Without the required
documentation, Adams could not provide adequate assurance that students were
trained and accounted for as required by Job Corps. As Job Corps continues in its
efforts to revise Job Corps’ policies and requirements, Adams needs to ensure
documentation is maintained that supports compliance with those changed policies and
requirements.

Regarding Adams oversight, we cite specific examples in the report where Adams
oversight could be improved. For example, Adams corporate management did not
identify problems with significant incident reporting at any of the three centers, nor did
Adams corporate management ensure that problems identified internally by both
Atterbury and Gadsden regarding CTT completions and AWOL contacts were
corrected.

Objective 1 – Did Adams ensure compliance with Job Corps requirements for
              managing center safety programs?

Finding 1 –     For two of three areas reviewed, nothing came to our attention
                indicating that Adams did not ensure compliance with center
                safety. However, Adams did not consistently ensure compliance
                with Job Corps requirements for managing student misconduct.

Nothing came to our attention indicating that Adams did not ensure compliance with Job
Corps requirements for two of the three areas reviewed — safety inspections and safety
committee meetings.

For the third area reviewed — student misconduct — Adams did not consistently ensure
compliance with Job Corps requirements for center safety. At Atterbury, fact-finding
boards (FFB) were not always convened as required for students suspected of
misconduct, such as threats of violence and patterns of inappropriate behavior; and
behavior review panels (BRP) were not convened for students who committed multiple,
less serious infractions such as creating a disturbance or missing classes. The students
were allowed to stay on center without consideration of appropriate disciplinary action,
including removal from the center. As a result, problem students were allowed to stay
on center, potentially placing other students and staff at risk. As a separate issue,
Atterbury and Gadsden did not always report significant incidents, such as sexual
assault, physical assault, and drug possession to Job Corps as required. At a minimum,
these actions hindered Job Corps’ ability to monitor center safety, to ensure significant


                                                                     Performance Audit of Adams
                                              4
                                                                     Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


student misconduct was handled appropriately, and to respond to negative press
regarding such incidents.

These conditions occurred because Adams corporate management believed that the
Center Director had more discretion than Job Corps policy allowed regarding whether or
not to convene FFBs, and neither Job Corp nor Adams provided adequate guidance
concerning when to convene BRPs or what constituted a pattern of inappropriate
behavior. Additionally, Adams and center management lacked sufficient supervisory
oversight to ensure compliance.

Fact Finding Boards and Behavior Review Panels Not Always Convened at Atterbury

Atterbury did not take appropriate actions to convene applicable FFBs and BRPs for
student misconduct. However, nothing came to our attention concerning issues with the
convening of FFBs or BRPs at Gadsden. Job Corps’ Policy and Requirements
Handbook (PRH) requires center operators to convene appropriate boards and panels
depending upon the level of the student infraction.

   	 Level I infractions: The student must be removed from the center immediately
      and an FFB must be scheduled. Drug use and sexual assault are examples of
      Level I infractions.

   	 Level II infraction: The student may remain on center if he/she is believed not to
      present a threat to self or others, but an FFB must be scheduled. Fighting and
      threat of assault are examples of Level II infractions.

   	 Level III infraction: The center is provided with some discretion in determining
      sanctions up to the convening of a BRP. A pattern of Level III infractions is
      considered a Level II infraction, which requires an FFB. Disruptive behavior and
      absences from assigned activity (including work, classes, and medical and
      counseling appointments) are examples of Level III infractions.

We reviewed a statistical sample of 63 of the 268 Atterbury students who separated for
disciplinary reasons during PY 2007. Of the 63 student records reviewed, 10 students
(16 percent) committed earlier infractions for which an FFB or BRP should have been
convened.

Five of the 10 students committed Level II infractions without a required FFB being
convened. The remaining five students committed multiple Level III infractions (6-18 per
student) which, in our opinion, should have required a BRP, or elevated the behavior to
a Level II infraction for exhibiting a pattern of inappropriate behavior, requiring an FFB.
For example:

   	 A male student got in a fight with a female student (his ex-girlfriend) and
      physically assaulted her. An investigation conducted by the center indicated that
      he grabbed his ex-girlfriend by the neck and shoved her. The investigation also

                                                                    Performance Audit of Adams
                                             5
                                                                    Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General


       revealed that both students admitted to having a very physical relationship and
       often hit each other. In accordance with the PRH, the center classified the
       fighting and physical assault as a Level II infraction, which required an FFB.
       However, an FFB was not convened. Adams Corporate Management told us
       there was not sufficient evidence to charge the student with fighting and the
       incident should have been classified as a Level III infraction, rather than a Level
       II infraction. However, the student’s record indicated that on 9/4/2007, this
       student grabbed his ex-girlfriend (also a student) by the neck and then shoved
       her. The record also showed that an investigation revealed that both students
       admitted to having a very physical relationship and were always smacking and
       hitting one another. Fighting is a Level II infraction according to the PRH, and
       warranted an FFB.

   	 A BRP was not convened for another student that committed 11 Level III
      infractions within a three-month period. After the 11th infraction, the center
      elevated the student’s misconduct to a Level II infraction, because the student
      exhibited a pattern of inappropriate behavior. However, the center did not
      convene a BRP for any of the infractions, and it did not convene an FFB for the
      pattern of inappropriate behavior, as required by the PRH. Adams corporate
      management told us a BRP or FFB was not warranted because the student’s
      behavior did not create an unsafe environment for students and staff. BRPs and
      FFBs are still required. Furthermore, two of the previous infractions indicated to
      us that the student did create an unsafe environment. In the first infraction, the
      student left class early without permission, and then came back 15 minutes
      before the class ended and flipped over a desk. In the second infraction, the
      student used an expletive and intimidating body language in repeatedly telling a
      staff member to get out of the student’s room.

Projecting the 10 students who committed infractions without a BRP or FFB being
convened, we estimate with 95 percent confidence that between 9 percent (25) and 23
percent (61) of the 268 students at Atterbury who separated for disciplinary reasons
during PY 2007 committed infractions where we believe a BRP or FFB should have
been convened.

These conditions occurred because Adams corporate management believed it had
more discretion than the PRH allowed in determining whether or not to conduct an FFB.
Also, neither Adams nor Job Corps policy was clear on when a BRP should be
convened for Level III infractions or what constituted a “pattern” of Level III infractions.
Adams policy required that for a fourth Level III infraction, the center was required to
convene a BRP or take alternative disciplinary action (e.g.; student behavior contracts,
restricted activities). The policy did not provide guidance on what should be done if the
alternative disciplinary actions were not effective and students continued to commit
infractions. Our review showed that five students committed between 6 and 18 Level III
infractions without a BRP being convened.




                                                                     Performance Audit of Adams
                                              6
                                                                     Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


The Office of Job Corps stated that it appeared we applied Job Corps policy
appropriately, and that our results may lead Job Corps to strengthen and clarify current
policy that involves the FFB and BRP issues we identified. Job Corps also stated that
the policy is not meant to be prescriptive, and was intended to leave final decisions in
the hands of the center’s staff. We agree that some discretion is warranted. However,
Job Corps requirements should be sufficiently specific to ensure FFBs are convened for
all Level I and II infractions, and BRPs are convened when alternative disciplinary
actions are not effective. The Job Corps requirements should also be sufficiently
specific to ensure consistent interpretation and enforcement.

Significant Incidents Not Reported to Job Corps

As a separate issue, both Atterbury and Gadsden did not take appropriate actions to
ensure all significant incidents were reported to Job Corps. The PRH requires centers to
report all significant incidents to Job Corps, including the following incidents we believe
are related to student misconduct:

      Physical assault
      Inappropriate sexual behavior
      Indication that a student is a danger to himself/herself or others
      Incident requiring police involvement
      Incident involving illegal activity
      Arrest of current student or on-duty staff member
      Theft or damage to center, staff, or student property
      Incident attracting potentially negative media attention

We reviewed a statistical sample of 63 of the 268 students who separated for
disciplinary reasons during PY 2007 at Atterbury and a statistical sample of 51 of the
130 students who separated for disciplinary reasons during PY 2007 at Gadsden. We
found that 16 of 63 students who were disciplinary separations at Atterbury and 13 of 51
students who were disciplinary separations at Gadsden committed significant infractions
that were not reported to Job Corps. Projecting these results, we estimate with 95
percent confidence level that as many as 93 of the 268 students (35 percent) at
Atterbury and as many as 45 of the 130 students (35 percent) at Gadsden who
eventually separated for disciplinary reasons during PY 2007 were involved in
significant incidents that were not reported to Job Corps. The types of significant
incidents that were not reported to Job Corps included inappropriate sexual behavior,
incidents involving illegal activity (drug possession and distribution), and physical
assault on students and staff.

The significant incidents were not reported to Job Corps because Adams lacked
sufficient center oversight. Specifically, Adams did not document any reviews performed
in this area. As such, center management misinterpreted the PRH and did not report
significant incidents as required. For example, Adams management told us that
Gadsden did not believe it was necessary to report incidents to Job Corps when the


                                                                    Performance Audit of Adams
                                              7
                                                                    Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


police were not involved. The PRH does not provide for such an exception to the
requirement for reporting significant incidents.

Underreporting of significant incidents impacts Job Corps’ ability to:

   	 adequately provide data for analysis of trends to inform management and policy
      decisions;

   	 allow the National and Regional Offices to monitor compliance with policy and
      regulations regarding serious incidents;

   	 respond to the press regarding serious incidents; and

   	 ensure the centers take appropriate action regarding the incidents being 

      reported. 


The importance of Job Corps ensuring centers take appropriate action is critical to
ensuring center safety. For example, during our review of student leave, we reviewed a
file in which it was stated that a female student at Atterbury alleged sexual assault by
four male students in her dorm room. The incident was not reported to Job Corps or the
police. According to center management, the incident was not reported because the
results of the center’s internal investigation concluded the sexual activity was
consensual. One of the four male students was given a Level III infraction for overt
sexual behavior. No disciplinary action was given to the other three males. All four
males were allowed to remain on center. The female student left the center and quit the
program immediately after the incident.

Based on our review of Atterbury’s response to the incident and the supporting
documentation, we question whether:

    	 Atterbury’s disciplinary action (or lack thereof) for the four male students was
       appropriate and adequately ensured student safety.

    	 Atterbury had the capabilities or authority to determine whether or not a felony
       such as sexual assault had been committed.

    	 Atterbury should have reported the incident to law enforcement authorities.

We asked Job Corps officials about their assessment of this situation. The Job Corps
regional director told us that Job Corps had not assessed the situation because
Atterbury had not made them aware of it. Even if Atterbury’s conclusion about the
alleged assault was correct, Atterbury was still required to report it as a significant
incident, since it was, at a minimum, inappropriate sexual activity according to the PRH.
We believe that Job Corps needs to review this incident to determine whether Atterbury
took the appropriate action.


                                                                    Performance Audit of Adams
                                             8
                                                                    Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


In response to our draft report, Job Corps addressed our recommendations but did not
comment directly on the audit results. However, as previously noted, Job Corps stated
that it appeared we applied Job Corps policy appropriately, and that our results may
lead Job Corps to strengthen and clarify current policy that involves the FFB and BRP
issues we identified. Job Corps will review its current policy to see if it reflects the
requirements necessary for investigation and disposition of incidents and rewrite the
policy if necessary for clarity. Furthermore, if a revised policy concerning FFBs and
BRPs is necessary, Job Corps will communicate to the Regional Directors that center
SOPs will have to be updated to reflect the new policy.

Adams stated that while there were some situations in which FFBs should have been
convened and SIRs should have been submitted, this did not create an environment
that was not safe for staff or students. Adams also stated disagreement with the report’s
comments concerning the Center Director’s discretion with convening BRPs because
the PRH gives the authority to make BRP determinations to the Center Director. We
disagree and continue to believe that the lack of appropriate disciplinary action impacts
student safety. As previously noted, all of the students included in our review of student
misconduct at Gadsden and Atterbury were eventually separated for disciplinary
reasons. Had the appropriate FFBs and BRPs been convened, and the significant
incidents reported, these students may have been separated earlier. Allowing problem
students to remain on center potentially places other students and staff at risk.

Objective 2 – Did Adams ensure compliance with Job Corps requirements for
              reporting performance?

Finding 2 –    For two of four performance reporting areas reviewed, nothing
               came to our attention indicating that Adams did not ensure
               compliance. However, Adams did not ensure compliance with Job
               Corps requirements for CTT completions and student
               accountability.

Nothing came to our attention indicating that Adams did not ensure compliance in two
performance reporting areas reviewed — General Educational Development
(GED)/High School Diploma (HSD) attainment and Student On-Board Strength (OBS), a
measure of a center’s ability to operate at full capacity. However, Adams did not ensure
compliance for the other two performance reporting areas reviewed — CTT completions
and Student Attendance/Accountability.

For CTT completions, students at Atterbury and Gadsden did not complete all of the
training tasks required by Job Corps. Incomplete tasks could impact a student’s ability
to obtain and maintain employment in the vocation in which the student was trained,
and inaccurate performance reporting impacts management decision making, incentive
payments, and option years awarded to contracted center operators. Furthermore,
Adams may owe DOL liquidated damages ranging between $68,250 and $117,750 for
the CTT completions that were not in compliance with Job Corps policy. In addition, for
Student Attendance/Accountability, staff at both centers did not consistently attempt to


                                                                    Performance Audit of Adams
                                             9
                                                                    Report No. 26-09-003-01-370
                                          U.S. Department of Labor – Office of Inspector General


contact or document attempts to contact students or their parents (for minor students)
when the students were AWOL, and student leave was not supported as required.
Contacting AWOL students or their parents and documenting approved leave are critical
to ensuring students are safe and accounted for.

These conditions occurred because Adam’s controls over these areas need
improvement. The control weaknesses included inadequate center procedures, staff not
following established center procedures, and lack of training and supervision.
Additionally, Adams corporate oversight at Atterbury and Gadsden did not effectively
address the deficiencies we identified in these areas.

CTT Completions Not in Compliance at Atterbury and Gadsden

Atterbury and Gadsden reported students with incomplete Training Achievement
Records (TARs) as CTT completers in their reported performance for PY 2007. The Job
Corps PRH requires centers to (1) document that students are proficient at all tasks
listed on the TARs, (2) ensure student progress is documented on TARs as progress
occurs, and (3) obtain approval for changes to tasks listed on the TARs from the Job
Corps National Director.

We reviewed a statistical sample of 111 out of the 613 students reported by both
centers as CTT completers during PY 2007. Our review showed 22, or about 20 percent
of the 111 TARs tested were not consistent with PRH requirements because one or
more tasks were not completed as required. The TAR deficiencies found included tasks
not documented as having been completed (e.g., lacked required instructor/student
sign-offs, completion dates, proficient performance ratings); completion dates for tasks
coincided with days the students were absent; and tasks were excluded without the
required approval from Job Corps. For example:

   	 At Gadsden, two students were reported as having completed the Heating,
      Ventilation and Air Conditioning (HVAC) TAR even though six tasks were not
      documented as completed. Adams management said that the HVAC training was
      provided by a subcontractor (Gadsden State Community College) who
      considered the tasks to be obsolete. According to Adams management, this
      position was supported by Job Corps National Office when it issued a new HVAC
      TAR. However, the new TAR did not become effective until after the students
      completed their vocations. Adams did not request a waiver from the Job Corps
      National Office for not completing the six tasks as required, and the Job Corps
      regional director told us the tasks should have been completed.

   	 At Atterbury, one TAR showed five tasks that were not signed by the instructor
      and the student. Another TAR showed five tasks completed on days the student
      was reported as AWOL. Adams management said these were administrative
      oversights.




                                                                   Performance Audit of Adams
                                            10
                                                                   Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


While Adams had established internal controls to ensure data reliability, it did not place
enough emphasis on ensuring the controls were working and effective. At both
Atterbury and Gadsden, reviews performed by the centers during PY 2007 identified
TAR completions as a problem area but did not effectively correct the TAR deficiencies.

Adams also did not ensure the TAR deficiencies identified by the centers were
corrected during its annual on-site corporate assessments. Adams management told us
that most of the vocational training consisted of more than 100 tasks, and that they did
not consider it to be a problem if one or two tasks were not properly documented as
complete, because the overwhelming evidence of student completions of tasks for a
given TAR serves as a statistical validation and completion of the TAR. We disagree. In
our opinion, individual tasks can be critical for obtaining and maintaining employment
(e.g., use of proper safety equipment). Also, 7 of the 22 invalid TARs we identified were
not limited to one or two incomplete tasks. The questioned tasks for these 7 TARs
ranged from 5 to 16. Table 1 shows the non-compliant TARs we identified at each
center and the number of questioned tasks for each TAR.

                                      Table 1 

                           22 TARS Were Not in Compliance



                 Number of                          Number of Students with
              Questioned Tasks                       Non-Compliant TARs
                 (per TAR)
                                       Atterbury           Gadsden            Totals
          1-2                              5                  10               15
          3-4                              0                   0               0
          5-10                             2                   4               6
          11 or more                       1                   0               1
          Totals                           8                  14               22

Incomplete tasks could impact a student’s ability to obtain and maintain employment in
the vocation in which the student was trained. Furthermore, inaccurate reporting of
center performance impacts Job Corps and Adams’ decision-making. Job Corps and
Adams may have been impacted financially because reimbursed operating expenses,
bonus and incentive payments, and option years awarded to contracted center
operators are based on reported performance.

The PRH also stipulated liquidated damages of $750 be assessed for each invalid
vocational completion. The PRH allows Job Corps discretion when assessing liquidated
damages. As such, Adams may owe DOL $16,500 for the 22 students we identified as
having incomplete TARs. Projecting these statistical sample results to the 613 CTT
completions reported for PY 2007, we estimated with 90 percent confidence that at least
91 students (15 percent) did not complete the vocation as required and between
$68,250 and $117,750 may be owed to DOL for Atterbury and Gadsden students with
incomplete TARs.

                                                                     Performance Audit of Adams
                                               11
                                                                     Report No. 26-09-003-01-370
                                          U.S. Department of Labor – Office of Inspector General




The Office of Job Corps stated that it appeared we applied Job Corps policy
appropriately, and that our results have led Job Corps to strengthen and clarify current
policy that involves the CTT completion issues we identified. During the audit, Job
Corps issued revised policy that is intended to ensure students receive the required
training while reducing the documentation requirements for CTT completions. Given Job
Corps’ discretion in assessing liquidated damages, and the new policy, Job Corps
needs to determine the amount of liquidated damages Adams owes the government.

Student Attendance and Accountability Was Not Adequate

Adams did not consistently comply with Job Corps requirements in two areas relating to
student attendance and accountability — (1) contacting or documenting attempts to
contact AWOL students or their parents, and (2) documenting and approving leave.

(1) No assurance that AWOL Students or Their Parents Were Contacted

Atterbury and Gadsden staff did not consistently attempt, or document attempts, to
contact AWOL students or their parents (for minor students) as required by Job Corps
(PRH Chapter 6, Section 6.1, R3, c & d, dated November 8, 2005). Staff attempts to
contact AWOL students or their parents are a critical part of ensuring the students are
safe and accounted for, and AWOL days and separations are minimized. When
students above 18 years of age are AWOL, staff must attempt to locate and contact the
students who were AWOL. When students are minors, the staff must attempt to contact
the students’ parents/guardians within 18 hours. The PRH requires contact attempts to
be documented in the students’ personnel files.

We reviewed a statistical sample of 107 out of 1,337 student files for separated students
with reported leave at Atterbury and Gadsden during PY 2007. Overall, 23 of the 107
student files (21 percent) tested contained at least one occasion where attempts to
contact AWOL students (or their parents) were not documented. Specifically, we found:

   	 At Atterbury, 12 of 73 student files reviewed contained at least one instance
      where attempts to contact AWOL students (or their parents) either were not
      made or were not documented. One of those 12 students was a minor.

   	 At Gadsden, 11 of 34 student files reviewed contained at least one instance
      where attempts to contact AWOL students (or their parents) either were not
      made or not documented. Two of these 11 students were minors.

Projecting the 23 students for which AWOL contacts were either not made or
documented, we estimate with 90 percent confidence level that the Atterbury and
Gadsden staff did not attempt, or document attempts, to contact students or their
parents (for minor students) on at least one occasion for as many as 366 students (27
percent) during PY 2007.



                                                                   Performance Audit of Adams
                                            12
                                                                   Report No. 26-09-003-01-370
                                          U.S. Department of Labor – Office of Inspector General


While the two centers had procedures in place requiring such contacts to be made,
Adams did not place sufficient emphasis on ensuring the procedures were followed.
For example:

At both Gadsden and Atterbury, center reviews conducted during PY 2007 identified
AWOL contacts as a problem area but the deficiencies were not corrected. Adams also
did not ensure the deficiencies were corrected during corporate assessments.

In addition, Adams management mistakenly believed that contacts were not necessary
if the student was AWOL on a non-training day. The PRH does not provide for such an
exception.

(2) Student Leave Was Not Properly Approved or Documented

Atterbury and Gadsden did not provide adequate assurance that student leave was
documented and approved as required by Job Corps. The leave used was not
consistently supported by the required leave forms and appropriate center staff
approvals. Prior to April 5, 2008, Job Corps required centers to document student leave
requests and management approvals on leave forms maintained in the students’
personnel files (PRH Chapter 6, Section 6.1, R.2. d & h, dated November 8, 2005).
Subsequent to April 1, 2009, leave approval documentation was required to be
maintained in Job Corps’ Center Information System (CIS).

We reviewed a statistical sample of 107 out of 1,337 student files for separated students
with reported leave at Atterbury and Gadsden during PY 2007. Of the 107 student files
reviewed, the reported leave for 41 students had at least one occasion where leave was
not pre-approved or not properly documented as required. These 41 students had a
total of 260 leave days that were not properly supported or pre-approved (17 days were
not properly supported and 243 leave days were not pre-approved). Table 2 shows the
number of students with leave days that were not properly supported or pre-approved
by the center.

                                     Table 2 

                         41 Students had Leave Days that 

                 were not Supported or Pre-Approved as Required


                                        Student Files with
                            Student                             Leave Days Not
                                         Leave Days Not
                Center       Files                               Supported or
                                          Supported or
                           Reviewed                              Pre-approved
                                          Pre-approved
            Gadsden            34            8 (24%)                   45
            Atterbury          73           33 (45%)                  215
            Total             107           41 (38%)                  260

Projecting the 41 students with leave days not properly approved and supported, we
estimate with 90 percent confidence level that at least 31 percent of the students at

                                                                   Performance Audit of Adams
                                            13
                                                                   Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


Gadsden and Atterbury had leave that was not properly approved in advance or
supported.

The leave exceptions we identified occurred because Adams did not place enough
emphasis on ensuring that reported leave was properly approved in advance and
supported. While Adams had an SOP for student leave, the SOP was not specific as to
the supervisory oversight needed to ensure compliance and how advance approval was
to be requested, obtained, and documented. We did not find any indication that this
area was reviewed by the centers or identified during corporate assessments.
Furthermore, Adams management told us the problems we found were clerical
oversights and that the leave was valid. We disagreed because Adams did not comply
with the PRH requirements and there was not adequate assurance that the leave was
valid. In addition, the extent to which we found leave exceptions indicated that the
problems with leave approval and support were systemic. As such, Adams needs to
improve its controls to ensure all leave is valid and students are properly accounted for.

In response to our draft report, Job Corps addressed our recommendations but did not
comment directly on the audit results. However, during the audit, the Office of Job
Corps stated that it appeared we applied Job Corps policy appropriately, and that our
results may lead Job Corps to strengthen and clarify current policy that involves the
issues identified. In direct response to the recommendations in our draft report, Job
Corps stated that the National Office will reiterate to the Regional Directors the
importance of identifying areas of non-compliance with Job Corps documentation and
reporting requirements for student CTT completions, leave, and contacting AWOL
students or their parents. Furthermore, the Regional Offices will determine the extent of
any incomplete TARs, CTT completions, and possible invalid vocational completions at
the Job Corps centers operated by Adams. Upon completion of Job Corps review each
Regional Office will work with the contracting officer to determine and resolve, if any,
possible liquidated damages that should be recovered from Adams.

Adams said that the CTT completion issue was a documentation problem and that Job
Corps has since reduced documentation requirement for CTT completions. In addition,
Adams said that the AWOL contact and leave issues were also primarily documentation
issues. They said the auditors could not prove that the AWOL students were not
contacted; and the majority of leave issues related to not having leave approved in
advance, which does not invalidate the leave.

We disagree with Adams’ assertions that the exceptions we identified for CTT
completions, AWOL contacts were primarily documentation issues. Without the required
documentation, Adams could not provide adequate assurance that students were
trained and accounted for as required by Job Corps. As Job Corps continues to improve
and revise its policies and requirements, Adams needs to ensure documentation is
maintained that supports compliance with those policies and requirements.




                                                                    Performance Audit of Adams
                                             14
                                                                    Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General


Objective 3 – Did Adams ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

Nothing came to our attention during our testing to indicate that Adams did not ensure
its centers complied with Job Corps requirements for managing and reporting financial
activity. Our methodology for evaluating Adams’s financial activities is summarized in
Appendix B.

Objective 4 – Did a hotline complaint alleging improper management practices
              pertaining to student misconduct, CTT completions, and WBL at
              the Shriver Job Corps Center have merit?

Finding 3 – 	   The allegation that students were being retained when they should
                have been separated for misconduct had merit. The allegations
                that students were rushed through CTT programs to improve
                reported performance, or were placed in WBL programs to extend
                enrollment, did not have merit. However, during our testing, we
                found CTT completions were not in compliance with Job Corps
                policy and students enrolled in WBL were not properly accounted
                for.

The allegation that Shriver students were being retained when they should have been
separated for misconduct had merit. Similar to Atterbury and Gadsden, Shriver did not
always convene FFBs as required for student misconduct, did not convene BRPs for
students with multiple lesser infractions, and did not report significant incidents involving
student misconduct to Job Corps as required. The allegations that Shriver students
were rushed though CTT programs to improve reported performance, or were placed in
WBL programs to extend enrollment when they were already employed, did not have
merit. We found no evidence that Shriver management engaged in these improper
practices. However, CTT completions were not in compliance with Job Corps policy and
students enrolled in WBL were not accounted for properly.

The Allegation Relating to Student Misconduct Had Merit

We reviewed Shriver’s management of student misconduct because of a hotline
complaint alleging that students who should have been separated for misconduct were
allowed to remain at the center. We found that the allegation had merit. Shriver did not
always convene required FFBs for Level I and II infractions. Shiver also did not always
convene BRPs for students who committed multiple Level III infractions because neither
Adams nor Job Corps policy was clear on when a BRP should be convened for Level III
infractions; or what constituted a “pattern” of Level III infractions. Furthermore, Shriver
did not consistently report significant incidents to Job Corps.




                                                                     Performance Audit of Adams
                                              15
                                                                     Report No. 26-09-003-01-370
                                                        U.S. Department of Labor – Office of Inspector General


We tested a judgmental sample of 26 student files out of the 172 students who
separated from Shriver during PY 20081 (through January 31, 2009) to determine
whether FFBs were convened as required for Level I and II infractions, or BRPs were
convened for multiple Level III infractions. Eleven of the 26 students tested (42 percent)
committed multiple infractions without having an FFB or BRP being convened. Of the 11
students, 6 students committed a total of 11 Level I or II infractions, each of which
warranted an FFB, but none were convened. All 11 students committed multiple Level
III infractions without a BRP being convened. The number of Level III infractions ranged
from 5 to 46 infractions per student.

As with Atterbury and Gadsden (see Finding 1), Adams and Shriver officials believed
they had more discretion than the PRH allowed in determining whether an infraction
should be classified as Level I, II, or III and neither Adams nor Job Corps policy was
clear on when a BRP should be convened for Level III infractions or what constituted a
“pattern” of Level III infractions. Also, Adams and Shriver officials believed they had
more discretion than the PRH allowed in determining whether or not an FFB needed to
be convened. For example:

    	 One Shriver student’s file indicated that the student committed a Level I infraction
       without an FFB being convened as required by the PRH. The case notes in the
       student’s file indicated that the student left the center for unauthorized reasons
       and had the smell of marijuana on his hands when he returned. The student
       admitted to smoking marijuana. The PRH specifically states that drug use is a
       Level I infraction and requires a drug test. However, Shriver incorrectly classified
       the incident as a Level II infraction (inhalation of a volatile intoxicating
       substance), did not convene an FFB (required for Level I and II infractions), and
       did not confirm drug use by requiring the student to take a drug test.2 The
       purpose of the drug test is to positively confirm use of drugs and to establish a
       benchmark in the event the student tests positive a second time within the 45-
       day suspicion intervention period. If the substance levels are lower for the 2nd
       positive test than for the original positive test, it is possible that the student did
       not use drugs during the intervention period.

    	 Two students committed two Level II infractions, each without the required FFBs
       being convened. The first student was twice cited for inciting a disturbance. The
       second student was cited on separate occasions for threat of assault and inciting
       a disturbance. Shriver properly classified these incidents as Level II infractions.
       However, center management chose not to convene any FFBs because they did
       not consider the infractions to be serious enough to warrant an FFB. These
       actions were not consistent with the PRH, which required an FFB for all Level II
       infractions.



1
 PY 2008 covers the period July 1, 2008 through June 30, 2009
2
 The PRH allows a first time drug use offender to remain in the program provided the offender participates in the
center’s drug treatment program.

                                                                                     Performance Audit of Adams
                                                           16
                                                                                     Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


Shriver also did not consistently report significant incidents to Job Corps as required by
the PRH. From a judgmental sample of 13 out of the 48 students who were separated
for misconduct during PY 2008 (through January 31, 2009), 6 students (46 percent)
were involved in significant incidents that were not reported to Job Corps as required.
For example, 4 students were separated from Shriver for the sale, possession, or
distribution of drugs. Shriver did not report these significant incidents to Job Corps as
required by the PRH. Adams corporate management told us these incidents were not
reported because the police were not involved. However, the PRH requires reporting
such incidents to Job Corps whether or not the police are involved.

Similar to Atterbury and Gadsden, the significant incidents were not reported to Job
Corps because Adams lacked sufficient oversight to ensure compliance with the Job
Corps requirement to report such incidents. As previously noted in finding 1, Adams did
not document any center or corporate reviews performed in this area.

CTT Completions Not in Compliance at Shriver

The allegation that Shriver students were rushed through CTT programs to improve
reported performance did not have merit. Based on information provided by the
complainant, we judgmentally selected and tested the TARs for 42 students that were
reported as CTT completers in PY 2007 or PY 2008. We found no evidence that Shriver
management rushed the completers to improve performance. The overall training and
the specific tasks were completed within reasonable time frames. Our methodology for
validating the merit of this complaint allegation is summarized in Appendix B.

However, during our testing, we determined that Shriver CTT completions were not in
compliance with Job Corps policy for the period reviewed. Similar to the TAR
completion problems we found at Atterbury and Gadsden, 19 of the 42 CTT completions
we tested had one or more tasks that were not completed properly. Adams’ rationale for
not ensuring the tasks were completed was similar to the rationale provided in Finding 2
concerning CTT completions at Atterbury and Gadsden. As stipulated by the PRH,
Adams may owe DOL $14,250 for the 19 invalid TARs (19 x $750).

Shriver Did Not Accurately Report and Account for WBL Students

The allegations that Shriver students were placed in WBL programs to extend
enrollment when they were already employed did not have merit. We found no evidence
Shriver management engaged in this improper practice. Our methodology for validating
the merit of this complaint allegation is summarized in Appendix B.

However, during our testing we determined that Shriver did not accurately report
student participation in the center’s WBL program and did not provide adequate
assurance that the students were in attendance at their work sites. We judgmentally
selected and tested files for 28 of the 152 students who were participating in the WBL
program during the period July 1, 2008, through January 31, 2009, and found that
Shriver did not input information concerning 12 of the 28 students into Job Corps’ CIS.


                                                                    Performance Audit of Adams
                                             17
                                                                    Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General


Adams management told us Adams was aware of the problem — as it was an oversight
identified during an inspection by the Job Corps Boston Regional Office in November
2007 — and was in the process of taking corrective action. We note that our audit
occurred more than a year after the November inspection, and Shriver had not yet
addressed the problem. Without complete information on the students participating in
the WBL program, Job Corps cannot fully monitor the program’s effectiveness and
ensure that centers are properly accounting for such students.

Shriver also did not properly document student attendance at WBL sites. We found that
for 3 of the 28 files reviewed, the students’ files did not contain weekly WBL timesheets
required by the PRH (one student) or the timesheets did not have the required WBL
onsite supervisor signatures (two students). The timesheets provide assurance that
participating students were in attendance at their work sites and were properly
accounted for. Adams management told us that these situations were administrative
oversights.

In response to our draft report, Job Corps addressed our recommendations but did not
comment directly on the audit results for Shriver. However, during the audit, the Office
of Job Corps stated that it appeared we applied Job Corps’ student misconduct and
CTT policies appropriately, and that our results may lead Job Corps to strengthen and
clarify current policy that involves the issues identified. In direct response to the
recommendations in our draft report, Job Corps stated that the National Office will
instruct the Regional Office to determine if the accountability for students participating in
WBL programs at Shriver is systemic. Job Corps will also ensure that accountability for
students continues to be an area of emphasis during oversight reviews. If any problems
are identified during the oversight reviews, the Regional Offices will instruct Adams to
develop and implement a corrective action plan. As previously noted, Adams did not
agree with our audit results for student misconduct and CTT completions. Regarding
WBL, Adams acknowledged that documentation was not always in full compliance; and
that Job Corps’ elimination of 360 required WBL hours for each student will allow
Adams to focus on the quality of WBL opportunities and documentation.

RECOMMENDATIONS

We recommend that the National Director, Office of Job Corps require Adams to:

   1. Obtain Job Corps approval before deviating from any PRH requirements
      concerning the classification of infractions as Level I, II, or III; convening of Fact
      Finding Boards (FFBs); and Career Technical Training (CTT) completions.

   2. Develop and implement Standard Operating Procedures (SOPs) for convening
      FFBs and BRPs and determining what constitutes a pattern of inappropriate
      behavior; and to ensure all significant incidents are reported to Job Corps as
      required by the PRH.

   3. Improve the effectiveness of supervisory oversight to staff responsible for 

      complying with Job Corps student misconduct and performance reporting 


                                                                     Performance Audit of Adams
                                              18
                                                                     Report No. 26-09-003-01-370
                                         U.S. Department of Labor – Office of Inspector General


       requirements by revising the SOPs to require corporate assessments and center
       reviews to include the problem areas we identified in this report.

   4. Conduct assessments at each center to effectively identify non-compliance with
      Job Corps documentation and reporting requirements for student CTT
      completions, leave, contacting AWOL students or their parents, and Work-Based
      Learning (WBL).

Also, we recommend that the National Director:

   5. Provide center operators with effective guidance on convening FFBs and BRPs.
      This guidance should be sufficiently specific to ensure FFBs are convened for all
      Level I and II infractions, and BRPs are convened when alternative disciplinary
      actions are not effective. The guidance should also be sufficiently specific to
      ensure consistent interpretation and enforcement.

   6. Review the incident at Atterbury involving alleged sexual assault and determine
      whether Atterbury took the appropriate action.

   7. Determine the extent of any liquidated damages resulting from incomplete TARs
      at each Job Corps Center operated by Adams and require Adams to pay the
      liquidated damages to the government. This includes liquidated damages we
      estimated to be between $68,250 and $117, 750 at Gadsden and Atterbury and
      liquidated damages of $14,250 at Shriver.

   8. Determine if the accountability for students participating in WBL programs
      problems we identified at Shriver are systemic. Also, ensure that accountability
      for such students is an area of focus during both Adams and Job Corps oversight
      reviews to ensure that any problems are identified and corrective actions are
      taken.

We appreciate the cooperation and courtesies extended to us by Job Corps and Adams
and Associates personnel during the audit.




Elliot P. Lewis




                                                                  Performance Audit of Adams
                                           19
                                                                  Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               20
                                      Report No. 26-09-003-01-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                        Performance Audit of Adams
                 21
                                        Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               22
                                      Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the National Director, supported by a National Office
staff and a field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps Center (JCC), to become more responsible, employable, and productive
citizens.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through inter-agency
agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations (CFR) states all Job Corps centers are to be reviewed over the
3-year period. The OIG has taken the lead in providing audit coverage of the operators
and service providers for the Secretary.

Adams headquarters is located in Reno, Nevada. Adams also has regional
headquarters in Columbia, Maryland and Worchester, Massachusetts. Adams operates
11 Job Corps centers under contract with DOL. The centers serve residential and
non-residential students. The three centers included in our audit (Atterbury, Gadsden,
and Shriver) have training capacities (authorized On-Board Strength) of 650, 286, and
300 students, respectively.




                                                                     Performance Audit of Adams
                                              23
                                                                     Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               24
                                      Report No. 26-09-003-01-370
                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

       1. Did Adams ensure compliance with Job Corps requirements for managing center
          safety and health programs?

       2. Did Adams ensure compliance with Job Corps requirements for reporting 

          performance? 


       3. Did Adams ensure compliance with Job Corps requirements for managing and
          reporting financial activity?

       4. Did a hotline complaint alleging improper management practices pertaining to
          student misconduct, CTT completions, and WBL at the Shriver Job Corps Center
          have merit?

Scope

This report reflects the audit work conducted at Adams’ regional headquarters in
Columbia, Maryland and at three Adams-operated Job Corps centers. Except where
noted below, we reviewed center safety, performance data, and financial data for
Program Year (PY) 2007.3 (Note: We did not necessarily perform the same work at
Atterbury, Gadsden and Shriver. Gadsden was the first center we reviewed. Generally,
if we found no exceptions at Gadsden and also concluded that the corporate controls
were effective, then we did limited or no audit work at Atterbury. Our work at Shriver
was limited to the evaluating the allegations contained in the hotline complaint. As such,
we did not review financial data at Shriver. We used PY 20084 data (through January
31, 2009) at Shriver. In the paragraphs below, we note the specific field work we did at
the three centers.

Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.



3
    July 1, 2007 through June 30, 2008. 

4
     PY 2008 covers the period July 1, 2008 through June 30, 2009 


                                                                                  Performance Audit of Adams
                                                           25
                                                                                  Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an understanding
of Adams’ processes, policies, and procedures for managing center safety and reporting
financial and performance information to Job Corps. We interviewed Adams’ corporate
officials at Adams’ regional headquarters in Columbia, Maryland, and interviewed both
Adams’ corporate officials and center officials at the three centers we visited.

At the headquarters offices, we identified and evaluated Adams’ internal controls over
center safety and performance and financial reporting. We assessed risks related to
financial and performance misstatement and evaluated Adams’ overall control
environment.

We selected three Adams center locations for detailed testing — Atterbury, Gadsden,
and Shriver. We selected Atterbury and Gadsden based on a risk assessment, which
considered a number of variables, including size of operations, prior audit findings, and
OIG and Job Corps management concerns. We selected Shriver based on a hotline
complaint we received. We assessed the reliability of related data for the applicable
audit period and determined that the data was sufficiently reliable to accomplish our
audit objectives. We used a combination of statistical and judgmental sampling to select
the items tested at these centers. Judgmentally selected items, which cannot be
projected to the intended population(s) were chosen based on a number of factors
including known deficiencies (i.e., related audit concerns identified in prior OIG, DOL,
Adams, and consultant reports); inquiries of and information provided by Job Corps,
Adams and center personnel; and the nature of certain transactions (e.g., high dollar
value, susceptibility to theft or manipulation). Our methodology for each center is
described below.

Atterbury and Gadsden

Center Safety and Health

To gain a better understanding of the center’s safety and health program at both
Atterbury and Gadsden, we interviewed key Adams and center officials and staff,
reviewed applicable policies and procedures, performed walkthroughs, and conducted a
physical review of the center’s facilities. We also evaluated the results of corporate and
DOL regional office assessments of center safety and health processes, Safety and
Occupational Health Committee meeting minutes, inspection reports, and performed a
walkthrough of center buildings to determine whether the center effectively identified
and corrected safety and health deficiencies. We also performed physical inspections to
ensure that there were no apparent facility safety and health issues and to ensure that
problems identified by center, corporate, and DOL reviews were corrected.

We also statistically reviewed student files for students who separated from Atterbury
and Gadsden because of disciplinary infractions during PY 2007 (63 of 268 disciplinary
separations at Atterbury, and 51 of 130 disciplinary separations at Gadsden). The
review was to determine if the centers met the PRH requirements for convening fact-


                                                                    Performance Audit of Adams
                                             26
                                                                    Report No. 26-09-003-01-370
                                            U.S. Department of Labor – Office of Inspector General


finding boards or behavior-review panels and reporting for significant incidents. To
accomplish this, we reviewed the student files and disciplinary files to identify infractions
committed by the students and compared the actions the centers took regarding the
infractions to the requirements for convening boards and panels, and reporting
significant incidents to Job Corps.

In addition, we used a combination of statistical and non-statistical sampling to review
files for students who enrolled at the two centers during PY 2007 to determine if the
centers met the PRH requirements of providing basic health evaluation — to include
drug screening upon enrolling students and making sure students receive physicals
within 14 days of being on center, and performing background checks for criminal
activity. To accomplish this, we reviewed appropriate medical forms in each selected
student’s medical file (12 students judgmentally selected from a population of 950
students at Atterbury and 69 students statistically selected from a population of 401
students at Gadsden) and compared the forms to the applicable PRH requirements. We
also reviewed the student files to ensure the appropriate background checks were
performed in accordance with the PRH.

Performance Reporting

We interviewed key Adams and center officials and staff, reviewed applicable policies
and procedures, reviewed prior audit reports, and performed walkthroughs to gain a
better understanding of both Atterbury and Gadsden’s system for collecting, recording,
processing, and reporting performance data. We reviewed corrective actions taken by
Adams for instances noted on regional assessment reports. We used a combination of
statistical and non-statistical sampling to examine performance reporting.

To determine if reported CTT completers had supporting Training Achievement Record
(TAR) documentation in compliance with PRH requirements, we reviewed a statistical
sample of 35 out of the 199 students reported by Gadsden as CTT completers and 76
out of the 414 students reported by Atterbury as CTT completers. In total, 111 out of the
613 students Adams and Associates had reported as CTT completers for the two
centers were reviewed.

We reviewed each student TAR for a number of attributes, including tasks not
documented as having been completed (that is, lacked required instructor/student sign-
offs, completion dates, proficient performance ratings); task completion dates that
coincide with holidays, weekends, student leave dates, and dates not in trade; tasks
excluded without proper approval; and the reasonableness of time noted to complete
tasks.

To determine if controls over student leave and attendance were in place, we used a
stratified statistical sample to test 34 student files from a population of 392 at Gadsden and
73 student files from a population of 945 at Atterbury. In total, 107 student records out of
1,337 student records were reviewed. We identified students on leave as reported on the
student profile — Center Information System (CIS) Form 640. We calculated leave days


                                                                     Performance Audit of Adams
                                              27
                                                                     Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


taken over the designated limit identified for each status listed in the PRH (Exhibit 6-1) and
assessed whether there were patterns of leave taken, such as unpaid leave followed by
paid leave followed by AWOL status, before separation from the center. We reviewed
student records to identify (1) whether a student placed on leave had a leave request form
completed, and (2) whether student leave request forms located in student records had
proper signature approvals or authorizations consistent with the leave status type as
required by the PRH (Exhibit 6-1). We also used this sample to determine if attempts were
made to contact AWOL students. We did this by reviewing student records to determine
whether counselor case note documentation was present for each incident an AWOL was
reported on the CIS Form 640.

To determine if students reported as GED/HSD completers were accurately reported,
we statistically tested students claimed as earning GED certificates and High School
Diplomas during PY 2007 at Gadsden and tested a judgmental sample of students at
Atterbury. To verify GED/HSD attainment, we reviewed each student file for copies of
certificates/diplomas and score reports/transcripts.

Financial Reporting

We interviewed key Adams and Gadsden officials and staff, reviewed applicable
policies and procedures, analyzed prior audit and consultant reports, reviewed
corrective actions taken by Adams on regional assessment reports, and performed a
walkthrough of selected transactions to gain a better understanding of the center’s
system for financial reporting.

For non-personnel expenses, we reviewed a judgmental sample of 13 transactions
chosen from the Gadsden’s PY 2007 check register. The sample population was
chosen based on the following criteria: payments that exceeded $2,500, payments that
appeared to be paid to unusual vendors, payments for items that appeared to be
attractive, payments that appeared to be for unallowable expenses, and payments that
appeared to be unusual in nature. The review of transactions was to determine if the
expenses reported were reasonable, allocable, supported, properly bid for, and had
proper approval documentation. This review included tracing the expenses to the GL.

For personnel expenses, we performed an analytical review of payroll expenditures and
judgmentally selected and reviewed payroll records for 13 employees at Gadsden. The
sample of 13 employees was selected based on a high-risk assessment for overtime
pay, the highest-paid center officials, and employees not listed on the given employee
roster. The review was to determine if expenditures were for actual and allowable work
done by valid employees at their authorized rates. This included tracing the selected
expenditures to authorized timesheets, leave, and pay rates.

To determine compliance with PRH requirements for reporting reimbursable expenses
we examined the monthly Form 2110 reporting reimbursable expenses and the bi-
weekly Form 1034 vouchers requesting reimbursement for center expenses for Contract
Year (CY) 2007 at Gadsden. We then used a Job Corps-provided reconciliation


                                                                    Performance Audit of Adams
                                             28
                                                                    Report No. 26-09-003-01-370
                                                       U.S. Department of Labor – Office of Inspector General


spreadsheet (required by Job Corps for all centers to use) to verify Gadsden’s reported
expenses reconciled to the vouchers. Furthermore, we compared Gadsden’s CY 2006
to CY 2007 Form 2110 monthly operating expenses to identify variances, and reviewed
significant variances to determine whether the variances were reasonable. In addition,
we compared a judgmental sample of CY 2007 monthly operating expenses to the
amounts reported in the general ledger to ensure expenses were accurate.

Shriver

Center Safety and Health

To determine if the complainant’s allegation of whether students who should have been
separated for disciplinary reasons were allowed to remain at Shriver had merit, we
judgmentally reviewed 26 student files from a population of 172 students who were
separated during PY 20085 (through January 31, 2009), for both ordinary and
disciplinary reasons. We reviewed the student files and disciplinary files (for disciplinary
separations) to identify infractions committed by the students and compared the actions
Shriver management took regarding the infractions to the PRH requirements for
convening boards and panels, and reporting significant incidents to Job Corps.

Performance Reporting

To determine if the complainant’s allegation regarding whether Shriver students were
being rushed through CTT training had merit, we reviewed a judgmental sample of 42
students from a total population of 122 students. Because the complainant specifically
mentioned the auto vocation, the review included testing all 11 students who had
completed the auto trade vocation for PY 2007 and 13 students who had completed the
auto trade vocation for PY 2008 through January 31, 2009. We also reviewed a
judgmental sample of 18 out of a population of 98 students reported as CTT completers
during PY 2008 through January 31, 2009. The 18 students selected had separated
from the center within 5 days of completing training or had completed training within a
one-month period prior to separating.

We reviewed each student TAR to determine if it appeared the student was rushed
through the CTT training. We also reviewed each student TAR for a number of
attributes, including tasks not documented as having been completed (that is: lacked
required instructor/student sign-offs, completion dates, proficient performance ratings);
task completion dates that coincided with holidays, weekends, student leave dates, and
dates not in trade; tasks excluded without proper approval; and the reasonableness of
time noted to complete tasks.

Work-Based Learning

To determine if the complainant’s allegation regarding whether students who were CTT
completers were being placed on WBL had merit, we selected a judgmental sample of
5
    PY 2008 covers the period July 1, 2008 through June 30, 2009

                                                                                Performance Audit of Adams
                                                          29
                                                                                Report No. 26-09-003-01-370
                                           U.S. Department of Labor – Office of Inspector General


28 from a population of 152 students participating in WBL (including Home Work-Based
Learning) during PY 2008 through January 31, 2009. Our review included students
specifically mentioned either by the complainant or in center minutes (as suggested by
the complainant). We reviewed student files to determine if the files contained the
documentation required by the PRH for students participating in WBL (for example,
Memorandums of Understanding between center and the WBL employer, student
timecards, counselor notes, and TARs tasks applicable to the WBL assignment).

We also evaluated the center’s process for appropriate and timely recording of students
WBL activities in the CIS system. To accomplish this, we compared the names reported
in the CIS system to the list of names identified in our sample to determine if they were
included in the CIS as required by PRH.

Criteria

We used the following criteria to perform this audit:

      Federal Acquisition Regulations.
      Job Corps Policy and Requirements Handbook.
      Adams’ Standard Operating Procedures




                                                                    Performance Audit of Adams
                                              30
                                                                    Report No. 26-09-003-01-370
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations

Adams                 Adams and Associates, Incorporated

Atterbury             Atterbury Job Corps Center

AWOL                  Absent With Out Leave

BRP                   Behavior Review Panel

CIS                   Center Information System

CSIO                  Center Standards Incentive Officer

CTT                   Career Technical Training

CY                    Contract Year

DOL                   Department of Labor

FFB                   Fact Finding Board

Gadsden               Gadsden Job Corps Center

GED                   General Educational Development

HSD                   High School Diploma

HVAC                  Heating, Ventilation and Air Conditioning

NIR                   Negative Incident Report

OBS                   On-Board Strength

PRH                   Policy and Requirements Handbook

PY                    Program Year

Shriver               Shriver Job Corps Center

SOP                   Standard Operating Procedure

TAR                   Training Achievement Record

WBL                   Work-Based Learning


                                                               Performance Audit of Adams
                                        31
                                                               Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               32
                                      Report No. 26-09-003-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix D
Job Corps Response to Draft Report




                                                              Performance Audit of Adams
                                       33
                                                              Report No. 26-09-003-01-370
U.S. Department of Labor – Office of Inspector General




                         Performance Audit of Adams
  34 

                         Report No. 26-09-003-01-370
U.S. Department of Labor – Office of Inspector General




                         Performance Audit of Adams
  35 

                         Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               36
                                      Report No. 26-09-003-01-370
                                 U.S. Department of Labor – Office of Inspector General


                                                                        Appendix E
Adams Response to Draft Report




                                                          Performance Audit of Adams
                                   37
                                                          Report No. 26-09-003-01-370
U.S. Department of Labor – Office of Inspector General




                         Performance Audit of Adams
  38 

                         Report No. 26-09-003-01-370
U.S. Department of Labor – Office of Inspector General




                         Performance Audit of Adams
  39 

                         Report No. 26-09-003-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                      Performance Audit of Adams
               40
                                      Report No. 26-09-003-01-370
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), David Sterling, Alvin
Edwards, Robert Richardson, S. Marisela Sookraj, James Turkvant, Cory Grode, and
Angela Stewart.




                                                                   Performance Audit of Adams
                                            41
                                                                   Report No. 26-09-003-01-370
IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT: 


Online:        http://www.oig.dol.gov/hotlineform.htm
Email:         hotline@oig.dol.gov

Telephone:     1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
